<html>
<title> - [H.A.S.C. No. 114-114] The Department of The Navy 2017 Operations and Maintenance Budget Request and Readiness Posture</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


.                         [H.A.S.C. No. 114-114]

                                 HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2017

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                   SUBCOMMITTEE ON READINESS HEARING

                                   ON

                    THE DEPARTMENT OF THE NAVY 2017

                   OPERATIONS AND MAINTENANCE BUDGET

                     REQUEST AND READINESS POSTURE

                               __________

                              HEARING HELD
                             MARCH 17, 2016


                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                       U.S. GOVERNMENT PUBLISHING OFFICE
20-066                        WASHINGTON : 2016                       
_____________________________________________________________________________________________
 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a3c4d3cce3c0d6d0d7cbc6cfd38dc0ccce8d">[email&#160;protected]</a>  
                                    
  


                       SUBCOMMITTEE ON READINESS

                 ROBERT J. WITTMAN, Virginia, Chairman

ROB BISHOP, Utah                     MADELEINE Z. BORDALLO, Guam
VICKY HARTZLER, Missouri             SUSAN A. DAVIS, California
AUSTIN SCOTT, Georgia                JOE COURTNEY, Connecticut
ELISE M. STEFANIK, New York, Vice    JOAQUIN CASTRO, Texas
    Chair                            TAMMY DUCKWORTH, Illinois
FRANK A. LoBIONDO, New Jersey        SCOTT H. PETERS, California
MIKE ROGERS, Alabama                 TULSI GABBARD, Hawaii
CHRISTOPHER P. GIBSON, New York      BETO O'ROURKE, Texas
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
BRAD R. WENSTRUP, Ohio
SAM GRAVES, Missouri
STEVE RUSSELL, Oklahoma
                Margaret Dean, Professional Staff Member
               Vickie Plunkett, Professional Staff Member
                        Katherine Rember, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bordallo, Hon. Madeleine Z., a Delegate from Guam, Ranking 
  Member, Subcommittee on Readiness..............................     2
Wittman, Hon. Robert J., a Representative from Virginia, 
  Chairman, Subcommittee on Readiness............................     1

                               WITNESSES

Howard, ADM Michelle J., USN, Vice Chief of Naval Operations, 
  U.S. Navy; VADM Philip H. Cullom, USN, Deputy Chief of Naval 
  Operations for Fleet Readiness and Logistics; and VADM John C. 
  Aquilino, USN, Deputy Chief of Naval Operations for Operations, 
  Plans, and Strategy............................................     3

                                APPENDIX

Prepared Statements:

    Howard, ADM Michelle J., joint with VADM Philip H. Cullom and 
      VADM John C. Aquilino......................................    32
    Wittman, Hon. Robert J.......................................    31

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Scott....................................................    47
    Ms. Stefanik.................................................    47

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
    
   
   THE DEPARTMENT OF THE NAVY 2017 OPERATIONS AND MAINTENANCE BUDGET 
                     REQUEST AND READINESS POSTURE

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                                 Subcommittee on Readiness,
                          Washington, DC, Thursday, March 17, 2016.
    The subcommittee met, pursuant to call, at 9:37 a.m., in 
room 2118, Rayburn House Office Building, Hon. Robert J. 
Wittman (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. ROBERT J. WITTMAN, A REPRESENTATIVE 
       FROM VIRGINIA, CHAIRMAN, SUBCOMMITTEE ON READINESS

    Mr. Wittman. The Subcommittee on Readiness of the House 
Armed Services Committee. I want to thank everybody for joining 
us today. And our hearing today is going to be on the Navy's 
2017 operations and maintenance [O&M] budget request and 
readiness posture.
    This is the final of our series of four hearings on the 
services' budget request and readiness postures. This week, 
Admiral Howard, you testified before the Senate Armed Services 
Committee that sequestration, in your words, is the ``greatest 
threat to our future readiness. It has a ripple effect for us 
through the years.''
    Today, I look forward to hearing how the Navy's budget 
request enables a readiness recovery plan and where we continue 
to take risks calculated in terms of both risk to the force and 
risk to the mission.
    I would like to welcome all of our members and the 
distinguished panel of senior Navy leaders present with us 
today. This morning, we have with us Admiral Michelle J. 
Howard, U.S. Navy, Vice Chief of Naval Operations; Vice Admiral 
John Aquilino--I will get it right--don't worry, Admiral--U.S. 
Navy, Deputy Chief of Naval Operations for Operations, Plans, 
and Strategy; and Vice Admiral Philip H. Cullom, U.S. Navy, 
Deputy Chief of Naval Operations for Fleet Readiness and 
Logistics.
    Thank you all for testifying today, and we look forward to 
your thoughts and insights on these important issues. The 
purpose of this hearing is to clarify the Navy's choice for its 
budget requests, to address funding priorities and mitigation 
strategies, and to gather more detail on the current and future 
impacts of these decisions on operations, maintenance, 
training, and modernization. Most importantly, does the Navy 
have the resources it requires in order to improve its state of 
readiness?
    Once again, I want to thank our witnesses for participating 
in our hearing this morning, and I look forward to discussing 
these important topics.
    And now I would like to turn to our ranking member, 
Madeleine Bordallo, for any remarks that she may have.
    [The prepared statement of Mr. Wittman can be found in the 
Appendix on page 31.]

STATEMENT OF HON. MADELEINE Z. BORDALLO, A DELEGATE FROM GUAM, 
           RANKING MEMBER, SUBCOMMITTEE ON READINESS

    Ms. Bordallo. Thank you very much, Mr. Chairman, for 
calling this hearing.
    And I would like to also welcome Admiral Howard, Vice 
Admiral Aquilino, and Vice Admiral Cullom. I want to thank you 
all for your service to our great Nation and for being here 
today.
    This is the fourth and the final service-oriented hearing 
that we are holding in this subcommittee to examine the fiscal 
year 2017 budget request. We have heard several common themes 
echoed by commanders in your sister services. And I will be 
interested to hear if they ring true from your perspectives as 
well.
    Budget constraints and continued funding unpredictability, 
resulting from years of sequestration and continuing 
resolutions [CRs], have hampered the ability of the services to 
man, train, and equip the forces they need to fill critical 
mission requirements.
    We have also heard how installation readiness has been 
compromised and long-term projects have been shelved in favor 
of more pressing needs. This has secondary and great impacts 
and will create more significant funding requirements for 
military construction in the years to come.
    And, as I have mentioned before, I do remain concerned 
about depot-level maintenance capabilities, including dry-dock 
capabilities in the Western Pacific. I believe these 
capabilities are lacking, and the Navy is not investing enough 
to support its forward deployed fleet in the Western Pacific. 
We have these requirements and we must make the right 
investments, as this is a key to readiness in the region.
    In particular, I have serious concerns about the Navy's 
assessments and will continue working to ensure that our 
forward deployed assets have quality and secure maintenance 
that American workers and equipment provide without losing 
weeks of presence. Through our discussion today, I hope that we 
can gain a better understanding of how the Navy plans to 
maintain readiness through personnel, training, and 
infrastructure improvement.
    So, again, ladies and gentlemen, I thank you, again, for 
your service, and I look forward to hearing your testimony.
    And with that, I yield back, Mr. Chairman.
    Mr. Wittman. Thank you, Mrs. Bordallo.
    Admiral Howard, I have been told that you will be making 
one opening statement on behalf of all the witnesses, so please 
feel free to proceed. And, as a reminder, your written 
testimony has already been made available to the members and 
also will be entered as an official part of the record of 
today's hearing.

 STATEMENT OF ADM MICHELLE J. HOWARD, USN, VICE CHIEF OF NAVAL 
OPERATIONS, U.S. NAVY; VADM PHILIP H. CULLOM, USN, DEPUTY CHIEF 
OF NAVAL OPERATIONS FOR FLEET READINESS AND LOGISTICS; AND VADM 
  JOHN C. AQUILINO, USN, DEPUTY CHIEF OF NAVAL OPERATIONS FOR 
                OPERATIONS, PLANS, AND STRATEGY

    Admiral Howard. Thank you, Chairman Wittman.
    Chairman Wittman, Ranking Member Bordallo, and 
distinguished members of the committee, it is my honor to 
represent the thousands of Navy sailors and civilians who 
sustain operations around the globe.
    I appreciate the opportunity to testify on the current 
state of Navy readiness and the projected changes to that 
readiness with the fiscal year 2017 budget request. This budget 
submission provides the resources for our deployed forces and 
supports our continued readiness recovery efforts.
    This submission also contains the hard choices and 
tradeoffs we made to achieve future warfighting capability. In 
a design for maintaining maritime superiority, the Chief of 
Naval Operations [CNO], Admiral Richardson, has challenged the 
Navy team to meet the demands of our mission along four lines 
of effort.
    First, the readiness funding account directly contributes 
to the line of effort strengthening naval power at and from the 
sea. Navy readiness organizations are actively engaged in 
efforts to meet the second line of effort to achieve high-
velocity learning at every level by investing in our sailors 
through new and reinvigorated training programs. We support the 
third line of effort, to strengthen our Navy team for the 
future, by employing innovative training methodologies to 
accelerate productivity of new shipyard employees.
    Lastly, we strive to expand and strengthen our network of 
partners in order to meet our most critical challenges. We have 
reached out to industry to address our shipyard and aviation 
depot workload. Our budget request supports this design and, if 
executed, will result in continued operational excellence 
throughout our Navy.
    The demand for naval assets by the global combatant 
commanders remains high. And Navy continues to provide maximum 
sustainable global presence. Supporting this posture requires a 
commitment to protect the time and funds needed to properly 
maintain and modernize our force. Full recovery of the material 
readiness of the fleet is likely to extend beyond 2020. Stable 
funding, improvement in on-time execution of ship and aviation 
depot maintenance and steady state operations are required to 
meet our fleet readiness goals.
    As we proceed on the road to recovery for our afloat 
operational units, we continue to do so by taking conscious 
risk in the maintenance of our shore infrastructure. To 
mitigate impacts ashore, Navy has made difficult decisions and 
focused on items directly tied to our primary missions.
    As a tradeoff, Navy continues to postpone much-needed 
repairs and upgrades for the majority of our infrastructure. 
Continued shortfalls in our facility sustainment will 
eventually have effects on our at-sea readiness model. Failing 
to plan for these necessary investments will continue to slow 
our future recovery.
    We are still paying down the readiness debt we accrued over 
the last decade, but more slowly than we would prefer and at 
continued risk to our shore infrastructure. Powered by 
exceptional sailors and civilians, your Navy is the world's 
finest, and we are committed to retaining our superiority.
    This budget represents a margin of advantage over our 
adversaries. That margin could be lost if we do not achieve 
stable budgets. We will only maintain our status as the world's 
greatest navy with constant vigilance, dedication to restoring 
our readiness, and a commitment to sustained forces around the 
globe.
    I extend my thanks to this committee for your efforts and 
continued support. Thank you.
    [The joint prepared statement of Admiral Howard, Admiral 
Cullom, and Admiral Aquilino can be found in the Appendix on 
page 32.]
    Mr. Wittman. General Howard, thank you. I appreciate all 
the hard work the Navy has done in restoring readiness.
    My question along those lines is, as you look at the Navy's 
readiness recovery plan and how it defines setting the 
conditions for readiness recovery, a couple of different 
elements come to mind. First of all is, can you lay out for us 
the timeframes and when you will get to full-spectrum 
readiness? I think those are important to understand the steps 
we need to take and how long it takes for us to get there.
    Secondly is, along the way--and you--the Navy has assumed 
some risk in previous years. On the path to restoring 
readiness, there will also be some core functions where you 
assume some risk. If you could, lay out where you see risk 
being assumed and what you are doing to manage that, in the 
best way possible, as you are re-establishing readiness.
    And then thirdly is, the fiscal year 2017 budget that you 
spoke about provides you the resources in the readiness 
recovery. Does that do enough for you to get back to a state of 
full-spectrum readiness as quickly as you believe is attainable 
by the Navy?
    Admiral Howard. Thank you, Congressman.
    In order to talk about the timeframe, I need to explain how 
we invest in our forces in order to maintain a ready fleet. We 
have a fleet where we prioritize the readiness of the units 
that are forward deployed and the readiness of the assets that 
are going out the door.
    We generate forces that are fully prepared to do the full 
spectrum of operations. And so for us, it is as if we have this 
team of assets but, like every good team, we have a bench. And 
that bench is the assets that are the next ready to go or the 
assets we have if we ever have to get into a war fight. We 
refer to that bench as our surge capability.
    So we invest to make sure that, as people are required to 
do their daily operations, they are ready. Where we have made 
choices, our ability to surge, that bench, has become smaller. 
We have lowered the readiness of those assets and, in some 
cases, the readiness was lowered because we consumed that 
readiness.
    Over the last 10 years, we have operated at a higher 
operational tempo and we have had more ships out there. And we 
have had ships out there for much longer deployments than we 
had seen in the previous 10 years. It was not unusual for ships 
to be on 9- and 10-, and get extended sometimes, to 11-month 
deployments.
    And so, then, as those ships came back, we had to start 
working our way through getting them through maintenance. And, 
as we operated longer and harder, then the work we needed to do 
in the overhaul started to increase.
    With this budget, we will start working through the 
maintenance requirement to reset the force. The force will be 
fully recovered sometime just outside of the FYDP [Future Years 
Defense Program]. But there is another piece that is really 
important for the Navy to recover their readiness. We are 
required to still operate but, in order for us to get to an end 
state where the entire fleet is recovered, we have to manage 
the amount of fleet that is out.
    So we have determined that we can have about one-third of 
the fleet out and about while we are maintaining and then 
training the rest of the fleet but that, in the end, when you 
look at a 36-month, from maintenance-to-deployment cycle, it 
means our deployments need to be at about 7 months in order to 
get those ships back, to get to maintenance, in order to have 
the time to train the crew back up for the next deployment.
    So we have gone to an Optimized Fleet Response Plan [OFRP], 
where we will deploy the ships in 7-month deployments. And we 
have to be disciplined and hang onto that plan in order for us 
to get to recovered readiness.
    And then I would like to allow Admiral Cullom--see if there 
is anything--other specifics he would like to add. Thank you.
    Admiral Cullom. Yes, sir.
    What I would like to add on the--because on the second part 
of your question you asked about what the risk areas were. And 
one of the principal areas, as we try to support as many of the 
things that we can forward, is what do we have back home where 
we can take a conscious risk in, a deliberate risk, and be able 
to utilize those to be able to ensure that whatever goes 
forward, in support of our sailors and marines, actually is at 
that high-end and capable of full-spectrum.
    So, where we have taken a lot of that risk, really, is in 
three areas on the shore--the recapitalization of the shore, 
maintenance of the gear that we already have out there and, in 
some cases, the operations as well.
    Now, we have tried to protect the things that are really 
important, things that are important for our personnel--the 
child development centers and unaccompanied housing for our 
personnel. We have also tried to put a great focus on the 
nuclear enterprise, because those things are essential for 
actually contributing to the operations out there.
    Anything that is fully supportive of those things, 
communication centers, you name it--all of those things have a 
great sense of priority for us. And we try to garner our 
dollars in the shore area, in those areas to the critical 
infrastructure, the critical components within the critical 
infrastructure and then, in that way, try to keep those things 
at the highest level we can.
    We are monitoring every facility and every component within 
those facilities as well and then listening to the operational 
commanders out there, the fleet commanders, to make sure that 
we are not neglecting things that are essential for rebuilding 
that readiness--in the shipyards, in particular.
    Mr. Wittman. Well, thank you. I appreciate you kind of 
laying out how the Navy does readiness in the tiering method to 
where the forward deployed units are ready to go, 100 percent 
ready, and then, as they come back, they go into a down mode 
and then a pre-deployment mode, so we appreciate that.
    The Optimized Fleet Response Plan, I think, is critical to 
make sure that that is followed, and I couldn't agree more. And 
I understand the world gets a vote in that, so.
    But doing that not only helps in the infrastructure of the 
fleet but it also helps, too, in the retention of sailors 
because there is nothing worse for a Navy family, then, to say, 
``Hey, listen we are planning on a 7-month deployment'' and, 
guess what, it turns to 8 months or 9 months or 10 months.
    So, to make sure we keep those great sailors and their 
families, I think OFRP will go a long way to do that. So, we 
appreciate you laying that out. And, obviously, it takes a 
while to mitigate the risk that you assume for those units that 
come back and are waiting to get into the pre-deployment cycle.
    And, as you said, that surge capacity, then, has a 
different aspect to it if you are looking at it as far as what 
you can project forward as far as force.
    So we really appreciate that. And I want to come back and 
ask you some questions. I want to dive in a little bit more on 
the infrastructure issues because I think they are important 
too, which is where you have assumed some risk and what we are 
doing to rebuild that back into our readiness recovery plan.
    But, with that, I will go to Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    General Howard. Did I say General Howard?
    Admiral Howard. Yes, ma'am, but I get paid the same.
    Ms. Bordallo. Admiral Howard, it is right here in my notes. 
Since 2006, the Navy has nearly doubled the percentage of the 
fleet assigned to overseas home ports which, among other 
effects, results in economic losses in the United States 
shipyards as maintenance work shifts overseas.
    How has shifting the maintenance workload abroad for ships 
homeported overseas impacted the United States shipyard health 
and productivity? And in addition to economic losses, what 
risks to national security are accepted by having integral 
maintenance completed by foreign workers in overseas shipyards?
    Admiral Howard. Ma'am, although we have shifted our fleet, 
the sad news is, the size of our fleet has actually gotten 
smaller when you look at the last 15 years. On 9/11, we were 
probably at well over 300 ships and we are at 272 today, ships 
and submarines. We are working our way back up to a recovery of 
308 ships.
    The strength of the Navy is our mobility, and we still do a 
lot of our repair work in our fleet concentration areas. For 
the health of the shipyards, we have recognized the functional 
workload has been going up.
    And then, this last year, thanks for the support from this 
committee and others, we have started--we have gone on and 
continued to hire up to 3,500 shipyard workers. And we have 
also, for our aviation side, continued to hire the artisans in 
order to do aircraft depot work.
    When we have a ship that is overseas, we have different 
maintenance models for those different ships. So some of the 
ships do come back stateside for work. Some of them we have, 
U.S. workers are on flyaway teams that go out to do the repair 
work of the ship. And then, in some cases, particularly for 
voyage repairs, if it is too difficult for the ship to get back 
stateside, we will, of course, have to work with our allies to 
make sure that those repairs are done.
    Ms. Bordallo. Yes. Well, what about the security aspect?
    Admiral Howard. Ma'am, whenever we go into port, whether it 
is for repairs or anything else, we are very conscious about 
the security of the ships and the assets.
    Ms. Bordallo. Well, even if they are allies, still, we are 
going into foreign shipyards with foreign workers. What would 
be the reason? Is that because of the lower wages and the cost?
    Admiral Howard. So, ma'am, when we are working our way 
through maintenance, just like here, stateside, for 
maintenance, we competitively bid out these contracts. We are 
required to be responsible stewards of the taxpayers' money and 
make sure that we get good repair work for the appropriate 
cost.
    Ms. Bordallo. Admiral, I have another question for you.
    The Navy's fiscal year 2017 budget is predicated on three 
enabling legislative initiatives in order to free up funds to 
recover readiness.
    Now, how will the Navy respond and recover readiness if the 
Congress does not agree to deactivate a carrier air wing, 
induct seven cruisers into phased modernization, or eliminate 
the National Defense Sealift defense?
    Admiral Howard. Ma'am, first of all, I appreciate the 
dialogue and the conversation in this area.
    So, for example, let me start with the cruiser 
modernization. This is one where, when we look at the 
requirement for 88 large surface combatants, which is part of 
our force, our most recent force structure assessment, we tend 
to think about the size of the Navy just across the FYDP 
because we are having a budget discussion.
    But in the end, that 308-ship Navy and the different ships 
with the different missions--we need to have that across the 
future Navy as well.
    And so, I know you are aware, we put out a 30-year ship 
plan. We keep our ships for 30, 40, or 50 years.
    What we see is based on when we built the ships and how 
many we bought at one time. We were starting to see a bathtub 
in our large surface combatants out in the 20s and 30s.
    We now have 11 carrier strike groups--the potential for 
that, with 11 carriers. The cruiser is primarily the air 
defender for the carrier. So we realize we can keep 11 cruisers 
online, one for each carrier strike group, and then place 11 
into a modernization cycle.
    So then when those first, the ones that are still online, 
go offline, that cruiser that has been modernized and upgraded 
will now take its place. Then that allows us, then, to extend 
the service life of half of the cruisers out across the 40s 
preventing that bathtub.
    In the end, just with that one program, the cruiser 
modernization program, if we do not get congressional support, 
we would be looking at trying to generate $3 billion across the 
budget in order to pay for those cruisers instead of having 
them modernized, trying to keep them as active units. And that 
will impact other areas, potentially our readiness account and 
our personnel account.
    Ms. Bordallo. Thank you, Admiral.
    I have another question, but I am going to--I know you 
are--the vote is coming up, so Mr. Chairman, I yield back.
    Mr. Wittman. Thank you, Ms. Bordallo.
    We will now go to Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    And thank you to the panelists for being here today to 
testify and for your service to our country.
    Today, as you are well aware, America's Navy faces major 
issues like longer deployment schedules while managing a 
shrinking fleet, the volatility of the ship repair industry, 
and the ongoing strike fighter inventory management challenges.
    So, as our Navy and our sailors are facing great fiscal 
constraints, I am concerned with the new Unisex Uniform 
Initiative, which will not only burden the Navy with an 
estimated $7 million bill but, on top of that, only our female 
sailors will be encumbered with out-of-pocket expenses 
collectively totaling $4 million, a hefty price tag of $400 per 
individual female sailor.
    Wouldn't you agree that this money would be better spent on 
necessities like household costs, groceries, and utilities? And 
do you think it is fair that only our female sailors are 
encumbered with this out-of-pocket $400 cost?
    Admiral Howard. Ma'am, I have been in the Navy a long time 
and have gone through many uniform changes over my lifetime. 
And, in this case, the uniforms will be phased in, just like 
they are phased in so that we look at not trying to make the 
sailors, all at once, pay for the costs. But then that allows 
them--as their older uniforms get through wear and tear, they 
were going to have to buy another uniform anyway, and then we 
move them into the newer uniform.
    The Uniform Initiative, to get us to have a common 
appearance--I need to let you know that when I was a midshipman 
at Annapolis and I was in my whites, that looked very different 
from the men. I didn't understand why.
    I also came into a Navy that initially didn't have trousers 
for women. And it is just a pure functional aspect of actually 
going to sea and being able to do the job that there are 
certain uniforms and the way they look have got to support all 
of us, male and female, so that we are safe at work.
    Ms. Stefanik. Admiral Howard, I understand and I am very 
thankful for your service and leadership to your country.
    But I am concerned that there was a 71 percent 
dissatisfaction rate among the Navy's own test group with these 
proposed changes. Does that concern you that 71 percent of our 
sailors do not support this initiative?
    Admiral Howard. Ma'am, I will have to go back and look at 
that. I do know that the one uniform, the pilot on the chokers, 
was very well received. But I will go back and look into the 
dissatisfaction rate, absolutely.
    Ms. Stefanik. I would like to follow up with you on that.
    Admiral Howard. Absolutely.
    Ms. Stefanik. So I appreciate that. And then I want you to 
explain to us today--and you touched on it, but what is the 
operational necessity that these changes reflect?
    Admiral Howard. Ma'am, the issue of good order and 
discipline, when you think about--and it is--I wouldn't phrase 
it in operational. I would phrase it in our service and who we 
are, as culturally, and who we are as an ethos.
    The sense of uniformity and being a part of a team is 
central to all of our military. And then, for me, it is the 
functionality of the uniform and making sure that it is 
appropriate for both our men and women, that they can do their 
job, specifically.
    Ms. Stefanik. So is there an operational necessity?
    Admiral Howard. Ma'am, for all of us, for our uniforms, 
they identify who we are, and they are part of----
    Ms. Stefanik. But specifically the changes--no, not just 
the uniforms, but the proposed changes--is there an operational 
necessity that is driving these proposed changes?
    Admiral Howard. Ma'am, when we talk about uniforms and 
operational necessity, I am not sure that is the way to frame 
the question.
    Ms. Stefanik. Okay, I appreciate that. I look forward to 
getting your response on----
    Admiral Howard. On the dissatisfaction rate?
    Ms. Stefanik [continuing]. On the 71 percent 
dissatisfaction rate among our Navy sailors.
    Admiral Howard. Yes, ma'am.
    [The information referred to can be found in the Appendix 
on page 47.]
    Ms. Stefanik. And I yield back.
    Mr. Wittman. Thank you, Ms. Stefanik.
    We will now go to Mrs. Davis.
    Mrs. Davis. Thank you. Thank you, Mr. Chairman, and thank 
you all for being here.
    And, Admiral Howard, of course, I have to say, we greatly 
appreciate your being such a strong role model and have 
attained this position. It is quite remarkable and we 
appreciate it.
    I wonder if you could talk a little bit about sort of 
translating some of this to our constituents and certainly even 
to some of our colleagues that are in other committees.
    We know that readiness really doesn't have a constituency. 
And on this committee we have really had an opportunity, I 
think, to look at readiness, probably more than in other years 
that I have been sitting here on the committee and been in the 
Congress, since 2001.
    And how would you, in as quick a way as possible, give one 
example of why it is so important for us to focus on readiness 
but, more than that, to fix the budget mess that we are in?
    Admiral Howard. Ma'am, the lifeblood of our Navy is our 
people. And the sailors deserve assets. The ships they serve in 
have got to be ready to fight. The gear they have has got to be 
ready to fight.
    And they have to be trained to be ready to fight. And they 
deserve no less than the best in quality that we can provide 
them. So, in some ways, those sailors who represent every 
State, territory and, honestly, countries from around the 
world--we have sailors who are not U.S. citizens. They have 
given----
    Mrs. Davis. Many actually.
    Admiral Howard. Yes. They have committed to this Navy and 
to this Nation to protect the Constitution. But, as I have 
traveled and I have looked at the individual elements of 
readiness, I am astonished, just as our sailors are, from 
around the country. When you look at the shipyards, we think of 
them as being on the coast. But then, you look at all the parts 
that go into ships, those, also, are from around the country.
    And there are some--I went to visit Milwaukee Valve Company 
in Wisconsin. And I went there because I read about them in a 
newspaper article. They make most of the valves for our 
carriers. It wasn't until I went there, in Prairie du Sac, 
Wisconsin, that I found out they make most of the valves for 
all of our amphibious ships.
    And they make 2,000 valves for each of the Virginia-class 
submarine. This is a treasure in the middle of the Nation. And 
those public workers--those, literally, are making a difference 
to my Navy by what they produce.
    And so we are the sons and daughters of this entire 
country. And readiness means that we are ready to fight and we 
are ready to operate. And our sailors deserve no less.
    Admiral Cullom. Ma'am, if I can add one other point to 
that?
    Mrs. Davis. Yes.
    Admiral Cullom. If we fail to properly support readiness 
for our sailors, in the event of a crisis, then the units that 
are on that bench, they may end up being called to deploy on 
very short notice, almost immediately, in some cases, or it 
will take us additional time to be able to prepare those forces 
to go respond.
    And what does that really mean? It means risk to our 
mission, accomplishing it safely and properly. And that risk to 
the mission translates directly back to risks to our people.
    And so that is the importance for our sons and daughters 
from everywhere around the Navy that come from every State and 
territory. And that is why we owe it to them to do that.
    Mrs. Davis. Thank you.
    Admiral Cullom. Thank you, ma'am.
    Admiral Aquilino. Ma'am, if you don't mind, I think the 
best answer is we are ready to take whoever you would like out 
to see the fleet in action. And that is, I think, the best way 
to understand it, although no constituency is what is required 
to put a Navy to sea.
    Today your Navy is 272 ships, as the Vice Chief said. I 
will tell you that, as we sit here right now, 148 of them are 
either forward deployed, forward stationed, or underway 
training. That is, 54 percent of your Navy, as we sit here 
today, is operating. And the best way for people to understand 
that is come out and see, and we can help you with that if you 
would like.
    Mrs. Davis. Great. Thank you. I think that we are going to 
move on, because we are trying to get some more done.
    Thank you, Mr. Chairman, appreciate it. Thank you.
    Mr. Wittman. Thank you, Mrs. Davis.
    We will now go to Mr. Russell.
    Mr. Russell. Thank you, Mr. Chairman.
    And thank you, Admirals, for being here today.
    What do you see as the greatest threat to readiness? I 
would be curious of each of your opinions.
    Admiral Howard. I would like to start, Congressman. Thank 
you for that question.
    For the Navy, particularly because we are capital ships, we 
need stable budgets. We sometimes are required to purchase in a 
multiyear. But I will tell you, when we sequestered in 2013, we 
not only had to cancel deployments--I was down at fleet--we had 
to delay the deployment of the Truman to generate savings in 
our O&M account, and then we had to delay maintenance. And 
having our ships repaired is at the heart of readiness.
    So if we cannot get out of--underneath this shadow of 
sequestration, and then if we end up sequestering, that will 
have a terrible impact on our operational ability. But we also 
need stable budgets and so that we can plan and build ships for 
the Navy of the future.
    Mr. Russell. Thank you.
    Admiral Cullom. Yes, sir. And what I would add to what the 
Vice Chief said is that--what she mentioned about sequestration 
and what happened with that. As you all well know, the money 
came from all the wrong places, and that had second- and third-
order effects that have followed us for a number of years after 
that. The stability of the budgets is very critical and 
important as well.
    But another very challenging footnote to all of this, as 
well, is the continuing resolutions, because if we are unable 
to be able to quickly move ahead each year on a budget, then we 
are waiting until way too far into the year and then we end up 
sub-optimizing where that money can ultimately go in a whole 
range of different accounts.
    And so we could--we certainly appreciate what you are 
trying to do to help us in that regard, and thank you for the 
question.
    Admiral Aquilino. And, sir, I will give you the operational 
snapshot of that, is, again, your Navy, based on those numbers, 
we are not only trying to reset readiness, but we are doing it 
in stride.
    So no peace dividend where everybody came back and we are 
trying to get the ships fixed. We are still deployed at 
virtually the same rate we were during the height of the two 
wars with less numbers of ships.
    So the challenge is in understanding how the Navy is trying 
to reset readiness while, at the same time, understanding we 
remain forward. We are providing leadership options in time of 
crisis. We are providing deterrence against increasing number 
of adversaries, I would say. We are assuring and reassuring our 
allies.
    So all of those things, if you understand how we are 
operating, that will help you get to, I think, the financial 
answers that the Vice Chief and Admiral Cullom gave.
    Mr. Russell. And I appreciate those answers. That was my 
own experience in my decades in the service that the budgets 
commanders end up having to have knee-jerk reactions. You are 
one-third into the year before you have any kind of spending, 
then you are rushing to waste the dollars to try to catch up. 
It has a lot of volatility on the warriors.
    With regard to those convulsions, as we continue to take 
risks with our Nation's defense, I believe, beyond our 
ability--I will say it--I think we are cutting too deep. I 
think we are putting our Nation at risk.
    How do we retain the sailors that have the experience? We 
can't create them overnight when we see emergencies happen. 
Sailors and marines, soldiers, will have to stay alive long 
enough until the Nation can catch up to them.
    And that, typically, historically, from tricorne hats to 
today, has taken about 2 years. How are you mitigating this and 
trying to retain the best sailors' experience in these cuts and 
have you been able to address it?
    Admiral Howard. So, Congressman, we are, in terms of where 
we are in our end strength, in a slightly different place then 
our counterparts. From the time 9/11 started over the last--the 
first 10 years, our Navy actually came down in size. As I said, 
we were above 300 or well over 300 ships. We were at 14 
carriers. And now we are down to 272 ships.
    Our force size came down as well, several thousand people. 
We have stabilized at around 322,000 to 324,000 people over the 
last few years. And we are projecting we are probably going to 
stay at that. And then, as we build up into a 308-ship Navy--
with this budget we should be at 308 ships by the end of the 
FYDP--then we might have some changes in that force structure.
    So, right now part of this is, as Congressman Wittman 
pointed out, stable deployment cycles, steady state 
predictability to our sailors is very important--that they, in 
an operational tempo, that they can have the proficiency but it 
doesn't exhaust them.
    And then, in terms of actual retention, we started looking 
at this a couple of years ago and came up with ``Sailor 2025.'' 
We are a technologically focused force and, for us, when the 
economy is good, our nuclear powered engineers, our aviators, 
all of our engineers have other options where they don't have 
to deploy and get separated from the family. And, quite 
frankly, they will get paid more money for the skills, these 
wonderful skills and education that they have.
    So we have looked at the quality that we provide of life 
and service that we provide our sailors and have looked at 
education programs, internships outside of the Navy where they 
can get some experience and bring innovative ideas back into 
the Navy.
    For quality of life, we have expanded child development 
center hours. You will appreciate this. We finally have started 
to expand our fitness centers so that the sailors can go in at 
any time, and we are working our way across the fleet. And then 
we have gone to a 12-week maternity leave to allow our sailors 
to manage parenthood and that work-life balance.
    Thank you for the question.
    Mr. Wittman. Thank you, Mr. Russell.
    We will now go to Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    And thank you to the witnesses.
    And, Admiral Howard, your testimony kind of lays out the 
balancing act that the Navy has right now in terms of 
shipbuilding, operations and maintenance.
    And then, I think, sometimes it is hard for people to 
decipher exactly where the hit is. But I would like to just 
sort of focus on pages 5 and 6 of your testimony, which is on 
the shore infrastructure, which, Admiral Dixon Smith was here 
earlier this year and, again, sort of walked us through--how, 
with MILCON [military construction] you have had to really sort 
of prioritize where those dollars are going, more towards 
implementing construction for new systems and new platforms as 
opposed to sort of the regular blocking and tackling of MILCON 
in terms of the shore infrastructure.
    So I wonder if you could just kind of talk about that a 
little bit because, again, I think it is important for members 
and also people watching this to realize that there has really 
been this sort of trend where that kind of MILCON has kind of 
paid the bill over the last 5 or 6 years or so. And so maybe 
you could talk about that a little bit.
    Admiral Howard. Thank you, Congressman.
    So our MILCON has--our military construction dollars has 
gone down as we have tried to get to a balanced budget. And so, 
where we would completely recapitalize, that forces us to make 
a priority list. And then the items that go to the top of the 
priority list are going to be the items that are for the health 
and safety of the Navy or the larger community. So we realize 
there are going to be utility services or water treatment 
plants that are going to have to be replaced.
    Then, sometimes, when you get into facility sustainment, an 
HVAC [heating, ventilating, and air conditioning] system might 
have to be replaced for the health of the people, and then the 
warfighting effectiveness goes. So if we have a runway that is 
ashore that is used for training before people go out to sea, 
that runway will take priority.
    But then there are other items that, as the dollars--we 
know work needs to be done, whether it is reworking quarters 
for our sailors, training facilities, all those--we are 
accumulating a backlog of work, because we don't have the 
dollars to get at it.
    And I would like to have Admiral Cullom provide some more 
specifics.
    Admiral Cullom. Yes, sir.
    What I would like to add to that is that, as you were 
pointing out, where we are at, and that is that area where we 
have taken a portion of that risk and we have triaged where 
that goes. And I think Admiral Smith may have talked about this 
a little bit in his testimony. We are at the lowest point since 
1999 in terms of the funding to it, but, where we prioritized 
it to, were the things that the combatant commanders need out 
there.
    So whether it is in Djibouti or in Guam or in the coastal 
campus in California, Seal Beach; things in San Diego; 
Keflavik, Iceland--those are all things that the combatant 
commanders have specifically asked for.
    New platforms--as we are bringing the new ones online, we 
have to have the facilities for those. So we have taken a great 
priority for the Growler, the maintenance hangars for that. F-
35, obviously, needs some things to support it so we are 
putting priority to projects there. The Triton, the unmanned 
systems, they need similar types of things.
    And then the next one is kind of utility upgrades because 
those are things that, when they go bad, they go bad very 
badly, and you have fires and you destroy lots of things. So we 
are really trying to focus on ensuring that we replace those 
things that we know and MILCON projects that upgrade power 
plants at PMRF [Pacific Missile Range Facility] out in Hawaii, 
up at Balboa, Sasebo, Bangor, a number of things there.
    And then shipyards--and shipyards have a very high priority 
because we can't really do our job unless those shipyards are 
able to be as efficient as they humanly can, because that is 
how we are going to get that reset of those, the capital ships, 
done.
    So we focused very heavily on not only the public yards, 
which we have in Bangor and Bremerton and Portsmouth, to do a 
lot of refit facilities and fix things that--a lot of that 
infrastructure is very, very old.
    And then, finally, things on weapons of mass destruction. 
We have a training facility that we needed to do there. So that 
is where that first tranche of it went. After that we have many 
other things on MILCON projects, as the Vice Chief articulated.
    Mr. Courtney. Great, thank you.
    Again, I am not being critical at all. I just think it is 
sort of helpful to sort of lay it out so people can understand, 
while we are not in the same environment for MILCON that we 
were when I first came to Congress back in 2006 and 2007. And 
this is helpful.
    So, I yield back.
    Mr. Wittman. Thank you, Mr. Courtney.
    We will now go to Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Ma'am, gentlemen, thanks for being here.
    And one of the things that I think we don't talk about 
enough is the fact that the U.S. coastline is our largest 
border, and that is the most likely place that we would be, I 
believe, attacked from. I think it would be unlikely for an 
enemy to come through Canada or Mexico without our ability to 
certainly see it coming and address it before it got to the 
U.S. It is the Navy that protects that coastline.
    And I think we should talk about that more, and how big 
that coastline is and just how much of the sea that you have to 
guard to protect Americans.
    Admiral Cullom, you answered this question a little bit, 
but if you could speak again to the fact, the uncertainty 
creates as many problems, if not more problems, as the actual 
funding reduction and the lack of timeliness and what the 
continuing resolutions have done with regard to the 
inefficiencies.
    Admiral Cullom. Yes, sir. Thanks for that question because 
I, hopefully, will explain a little bit more about what those 
uncertainties were. What we have seen happen----
    Mr. Scott. In fact could you speak, also, to specific 
examples of--can you give us specific examples in that, of how 
it hurt your mission requirements? Thank you.
    Admiral Cullom. Yes, sir, absolutely.
    One of the clearest examples I think I can bring to that is 
that--two, I will give you. One is on ship maintenance. So when 
we have these uncertainties and we don't yet know how much we 
are going to have to deal with and we have had to cancel--like 
we did during sequestration--cancel availabilities until we 
would have clarity on that.
    We have tried to do what we can, which is to do the 
preplanning for those availabilities, because it will 
eventually have to happen. Now, they will change. The longer we 
wait, if we don't do it when we are scheduled to actually do 
it, then there is going to be a lot more growth of additional 
work. There is going to be more rusting out of deck plates and 
tanks and things like that. So that will change, but getting 
that work done puts it on a shelf.
    But, if we wait too long, then we will actually not have 
the physical time to actually do the jobs that we need to do to 
actually be that part of that resetting of the force after 10 
years of war. And when we only have the opportunity to bring 
ships into a shipyard about once--into a dry dock once every 8 
years--pretty important that we get those things done 
absolutely right. So that is a shipboard example of it.
    On the shore side of the house, with our facilities 
sustainment and our restoration and modernization accounts on 
the shore, if we have the uncertainty of not knowing whether or 
not we have the money to be able to do that, then we can't 
start those projects until much, much later in the year.
    When that ends up happening, then we, likely, will miss the 
opportunity to actually start that project. And you either have 
to execute what you can, which is to pave over a runway when 
you know you really need to go back in and do a dry dock.
    Mr. Scott. One of the things that we talk about is full-
spectrum readiness, and that is certainly one of our goals. 
With regard to your aviation level of readiness, where are we 
in regard to full-spectrum? I know that you have given some 
indications of timelines that it would take to actually get to 
full-spectrum but the question I have is, when do we expect the 
readiness level to actually begin to improve?
    Admiral Cullom. Yes, sir, I will take that one.
    And this is one, I think, when you have heard the Vice 
Chief testify before and the CNO testify with the Commandant--
we are locked at the hip, on aviation readiness, with the 
Marine Corps on this because, as a Department of Navy, we have 
to manage this together. And that challenge is a pretty big 
one, as you have clearly articulated.
    There are a lot of moving pieces to getting that to the 
right place. You have aircraft that are on the flight line, you 
have other aircraft that are going through depot and through 
the FRCs [Fleet Readiness Centers]. You have to get parts to 
the right place at the right time, so the parts accounts have 
to be balanced right. We watch these things. The Naval Aviation 
Enterprise watches it very, very carefully to ensure that we 
are getting those things at the right place.
    We are--each of the type/model series of aircraft, if it is 
a strike fighter aircraft, if it is an FA-18, a legacy Hornet--
we have a lot of hours on those aircraft. We have to make sure 
that those are able to get done on time. The Commandant, I 
think, spoke quite a bit about his rotary aircraft and the CH-
53s, and those are a real challenge, too.
    To the full-spectrum piece, those things have to eventually 
be able to get those back onto the flight line for the training 
to rebuild the bench piece that the Vice Chief talked about. 
Everything that is going out there is ready, and it is ready to 
the degree it needs to be and they are firmly right. But it is 
the ones that are on the bench that we need to be able get that 
training time back for the pilots so that they could be 
prepared.
    And that is also key, to that point, when she said it is 
after 2020. But so many variables, so many type/model series 
and they have to integrate with the shipbuilders.
    Mr. Scott. What percentage is on the bench may be the 
better way to phrase the question then. We are, obviously, not 
at full-spectrum. Are we at 50 percent? Are we at 60 percent? 
Is that a number that can't be disclosed in this setting? And 
then my question is, obviously, it takes many, many years to 
get back to full-spectrum, but, if we stay under the current 
budget scenario, when would it actually begin to improve?
    Admiral Cullom. Yes, sir. That is a very challenging 
question because there are so many pieces to it, because, to 
give you the detailed answer that that deserves, if we could 
take that for the record----
    Mr. Scott. That is fine.
    Admiral Cullom [continuing]. And provide that answer for 
you, sir.
    [The information referred to can be found in the Appendix 
on page 47.]
    Mr. Scott. Thank you, Mr. Chairman. Thank you for your 
service.
    Mr. Wittman. Thank you, Mr. Scott.
    Mr. Gallego.
    Mr. Gallego. Thank you.
    Thank you, Vice Admiral.
    Part of this strategic planning guidance for developing 
next year's budget includes disaggregating large, costly 
platforms to smaller vehicles that are capable of achieving 
military tasks.
    And, I apologize; I am going to have to ask that, for you 
to--for you all to answer quickly because we have votes. While 
large capital platforms will always be necessary, I am 
concerned about future operational environments that could hold 
them at risk such as the advancement in cruise missile 
capability by some of our potential adversaries.
    So the Navy's budget continues to be pressurized for the 
traditional stock. I would like to know how it can better 
achieve distributed fire power. In a broader sense, I am also 
asking what our capital stock will be worth in another 15 to 20 
years and if we are moving quickly enough to diversify our 
capabilities. I mean, whoever wants to take that.
    Admiral Howard. All right, thank you, Congressman, for that 
question. So you got to the crux of the challenge of this very 
budget, this capability versus capacity question. And if you 
look at where we invested--looking at an anti-access/area 
denial, you will see that we invested in electronic warfare 
improvement. We invested in buying more of a greater mission 
capability missile in the SM-6.
    And so we looked at programs that would improve the 
capabilities of our platforms to fight in that environment, and 
we will continue to invest in those areas. Is there a capacity 
to have more of that and modernize more quickly? Yes, there is. 
But in the end, as we are trying to balance, we could not buy 
all of what we wanted to get.
    Mr. Gallego. Okay.
    Admiral Howard. Thank you.
    Mr. Gallego. And following up on the last question, do we 
really--do we need to rethink our capacity requirements like 
the target of reaching 308 ships or is this just a numbers game 
that takes into account the demand signals from our geographic 
combatant commanders? Or is it a top line ship goal reflective 
of a strategic purpose of, this is how many ships we need to 
accomplish our world missions?
    Or, in general, my concern is that the capabilities are not 
adequately being met because we are picking arbitrary numbers 
that aren't really reflective of our national security need.
    Admiral Howard. So the Navy goes through a force structure 
assessment and it accounts for all of those factors that you 
talked about. What is the current demand? What is the 
operational plans of the combatant commanders? How are we 
postured? And then what do they need to win in the war fight?
    And then that also accounts for the shipbuilding industry 
and the capacity to build ships. So the last baseline force 
structure assessment was in 2012. It had an update in 2014, and 
the CNO has directed that we quickly look at that.
    And the last view came up with 308 ships as the right 
number to meet the current demand signal and provide mission 
capacity for the combatant commanders but then also have enough 
surge capacity to be able to win in a war fight.
    So we are going to relook at that and make sure that is the 
right number. I will tell you, my sense is, when you look at 
the--between now and the last couple of years, with the 
resurgence of Russia, China is still a main issue; North Korea, 
which, for us translates to ballistic missile defense, one of 
our homeland defense missions; and Iran--it is quite possible 
we will be looking at a requirement for a greater number.
    But also, particularly for Russia and China--China building 
an undersea fleet and Russia modernizing a fleet--I think it is 
quite likely that this requirement of 48 SSNs [attack 
submarines] might also go up.
    Thank you for the question.
    Mr. Gallego. Thank you, Admiral.
    I yield back my time.
    Mr. Wittman. Thank you, Mr. Gallego.
    Ms. Bordallo. Chairman, may I make a quick announcement----
    Mr. Wittman. Of----
    Ms. Bordallo [continuing]. Before you recess?
    Admiral Cullom, you are retiring, is that correct?
    And this is your last hearing?
    Admiral Cullom. Yes ma'am, I believe this will be my last 
hearing.
    Ms. Bordallo. Well, good luck on your retirement.
    Mr. Wittman. Congratulations.
    Admiral Cullom. Thank you, ma'am.
    Mr. Wittman. I will ask the witnesses to indulge us. We 
have a series of votes that is going on right now. It will take 
us approximately 15 to 20 minutes to pursue that series of 
votes and then come back. So we would ask your indulgence to 
hang in there with us because we would like to finish with a 
few more questions.
    Admiral Howard. Absolutely, Congressman. Thank you.
    Mr. Wittman. Thank you. We will recess and reconvene in 20 
minutes.
    [Recess.]
    Mr. Wittman. We will reconvene the Subcommittee on 
Readiness of the House Armed Services Committee. I would like 
to thank our witnesses for their patience and indulging us so 
we can go to the floor and accomplish our voting duties. So we 
appreciate that.
    I did want to ask you to elaborate a little bit on the 
infrastructure issues. As you know, we had some previous 
hearings about the importance of infrastructure and facility 
support in helping the Navy and the other branches generate 
readiness.
    And I understand that, in many of the areas, where you look 
to accept risk may be in some of those particular projects, 
MILCON and others. But I do want to ask about some of what I 
think are fundamental elements of infrastructure maintenance 
which should fall outside of a MILCON project.
    And I just met with some folks the other day at the Norfolk 
Navy Yard, and they were concerned about just basic elements--
bathrooms not working, childcare facilities being just 
inundated with children, more than the capacity for them to 
deal with them. And, to me, those are critical elements for the 
workforce. If they are looking at those basic elements then, to 
me, there is a fundamental issue there. It is more than the 
elements of MILCON.
    There are some MILCON issues there with leaking roofs and 
those sorts of things and buildings. And I understand trying to 
prioritize those things on the Navy's list, but I do think it 
is fundamental, as you talk about not just our sailors but also 
our civilian workforce that are there, maintaining those ships.
    I would like to get your perspective on how you see the 
laydown of the Navy pursuing these infrastructure projects--
both MILCON and, obviously, I know you are accepting some risk 
there, but also some of the basic maintenance elements that, I 
think, are critical to everybody across the Navy family.
    So just want to get your perspective about how those issues 
are being addressed.
    Admiral Howard. Thank you, Congressman.
    So, we have had to prioritize over what has direct 
warfighting effects and then, obviously, for our shipyards, 
that has direct warfighting effects. We have a mandate to 
invest about 6 percent into the shipyards. And this last fiscal 
year, we are probably going to hit 8.1 percent. And we have 
budgeted in 7.1 percent, and that is where you get out repairs 
for dry docks, caissons, infrastructure upgrades in the dry 
docks.
    And then we do have this backlog of administrative 
buildings and other facilities that we have knowledge that they 
need repair, but we continue to--that list continues to grow as 
we focus on the direct warfighting aspect.
    In some of the quality of life issues, though--I do want to 
address that separately--so, for example, with the child 
development centers. We recognize this is a huge quality of 
life and an ability for someone to be able to work and know 
their kids are taken care of. And so that was the impetus 
behind us, and we--this is also in the budget to extend our 
child development centers.
    We started last year, as a pilot, and we are working to get 
that through all our fleet concentration areas focused on--we 
are, we have been looking at some of our members have 90-day 
wait lists--how do we get those wait lists down.
    And we have found some of that can be done by working with 
all of the other services and making sure we understand who is 
applied where and who is accepted and making sure children are 
enrolled as quickly as possible.
    And then, the same--providing more hours can sometimes 
alleviate some of the strain--the same with our fitness 
centers. But, yes, we have been taking risk in the next tier 
level down support facilities. And we recognize that that is 
eventually going to come home to roost.
    And then I would like Admiral Cullom to give a few more 
specifics.
    Mr. Wittman. Admiral Cullom.
    Admiral Cullom. Yes, Mr. Chairman.
    To add to that, in addition to the MILCON that we had 
talked about before and as the Vice Chief said, these other 
accounts whether they be the facilities restoration and 
modernization, sustainment of the facilities, or the base 
operations support--and those are the big three other 
components that we have--every one of those accounts, we have 
taken risk in.
    Mr. Wittman. Yes.
    Admiral Cullom. Now, again, we try to triage the risk that 
we take in those accounts so that we don't end up having things 
that are very essential and important for our sailors that do 
not represent the standard to which we want to have them be 
able to have they and their families live by, particularly for 
things like childcare and the housing.
    Now, that said, by the risks that we have taken there--and 
the Vice Chief talked about what that backlog is--that backlog 
is about $5.6 billion of backlog, and that will grow. It will 
continue to grow if we maintain these levels, continue to have 
to take this risk, by about $600 million a year. So we will 
just keep adding to that.
    Now, what that really means, to be able to triage down to 
maintain our systems as best we can, is that we have to put it, 
again, to where those facilities are the most important to 
sustain and to help our operations.
    And so, again, we concentrated very heavily on shipyards 
because we know how important they are to the mechanics of just 
being able to get, to make OFRP work----
    Mr. Wittman. Yes.
    Admiral Cullom [continuing]. And to be able to get those 
ships back to sea. But it isn't just that, it is also about the 
sustainment that we have to do to the runways and airfields and 
the dry docks as well. And those things kind of fall into that 
restoration and modernization accounts.
    And we, again, have prioritized to the ones that most 
support the operations. Now what that really leaves is a whole 
bunch of other things. There are administrative facilities and 
other places that will, in fact, have to go to a different 
standard.
    Now, many of us that have been in the Navy a long time 
remember where that was in the late 1970s or early 1980s, and 
it was very challenging. And so we know that is the ground, 
that is where we are headed to, if we have to keep going this 
direction for very long.
    Mr. Wittman. I think those are important points. When we 
did our hearings on infrastructure and facilities support, one 
of the issues that was brought up by the installation 
commanders, like places at Oceana, is when you are needing to 
put aircraft in the hangars and aircraft hangar space isn't 
available because of leaks in the roof or malfunctioning or 
non-functioning fire suppression systems, then your ability to 
generate aircraft readiness, to make sure they get in for 
routine maintenance, gets affected. So you see the direct 
effect on readiness there, and that is that scenario where I 
understand trying to manage risk there.
    But when it gets to that level and then another situation--
these are just examples--but where, Oceana, we had electrical 
failure with the lighting on the landing areas there. So now 
landings and takeoffs get delayed now for about an 8-hour 
period as they fix that.
    Now that is--and you know how that goes with flight 
training and all the elements that have to take place, when you 
back that up. And although 8 hours for the normal person 
doesn't sound like a lot, that creates a wave all the way 
through the training regimes and getting those aircraft out 
there, and then that is time lost that you never make up.
    And that is one of those areas of readiness that, we know, 
if you lose 8 hours there it takes 16 hours to regenerate the 
readiness that you lost in 8 hours. And that is just a 
microcosm of what happens across the spectrum.
    So I would really encourage you all to let us know, because 
many times readiness is associated with manning. It is 
associated with training. It is associated with maintenance and 
operation.
    But what we tried to do this year is to point out that 
infrastructure and facility support is a readiness generator, 
and where we are falling behind there has a direct impact on 
readiness. So, as you all look at how you assume risk there, 
please point out, at any opportunity you can, both to members 
here on the HASC [House Armed Services Committee] but also 
elsewhere, that that backlog, that $5.6 billion backlog gets to 
a point to be insurmountable.
    And, again, it is another bow wave, too, where even if we 
got to a point to say, ``Okay, let us put $5.6 billion into 
that,'' the capacity is not there to direct and operationalize 
that money to be able to restore that readiness. So you have 
not only resources that become a detriment, but it is time and 
how do you actually get that money applied in a reasonable and 
efficient way to actually get these things done.
    So that becomes a concern for us, too, if you get that 
backup in work. So I would encourage you to let us know, and we 
will make sure we continue to stay in touch with each of you 
about where we see and hear these inadequacies.
    And I understand that you are doing the best you can to 
pull out the roll of duct tape and the chewing gum and try to 
keep things together as much as you can, but we all know that 
that only goes so far and it doesn't buy as much time as we 
would like.
    So we have to make sure that we get to the bottom of this. 
And we are trying to focus on that as far as part of our 
readiness efforts.
    I appreciate what you all are doing and we will continue to 
make sure we have a dialogue on that.
    So now I want to go Ms. Bordallo.
    Ms. Bordallo. Thank you very much, Mr. Chairman.
    And it seems that all I have heard for the last few weeks, 
months, is readiness, readiness. It is the focal point of our 
military and, without it, there wouldn't be anything, I guess, 
to speak of. And we certainly wouldn't be able to be in a 
position to match a challenge anywhere. So it, truly, is really 
very, very important.
    So for any of the witnesses here, I want to ask this 
question. If operational tempo were to increase, due to greater 
requirements for operations in the Pacific area of 
responsibility, for example, to what extent would the Navy have 
the current readiness capabilities to meet the needs?
    And we will start with you, Admiral Howard.
    Admiral Howard. So ma'am, one of the things that is 
happening, as you are aware, is the rebalance to the Pacific. 
And if I could just step back and talk about that a little bit, 
strategically, because I also have found that when I speak 
publicly, some of the thought process over just rebalancing to 
the Pacific, I am getting challenged on.
    So we have talked about a changing environment. And I will 
say that, when you look at Department of Defense, five new 
challenges--China has remained, an emerging Russia, North 
Korea, Iran, and counter violence--I point out, if we think of 
those as the five new challenges, four of them are in the 
Pacific.
    Because people forget about Russia, our strategic 
relationship with Russia, our nuclear deterrence, and they are 
moving their new SSBNs [ballistic missile submarines] out to 
the Pacific. And so it is important for us to continue this 
rebalance--move 60 percent of our assets either to the West 
Coast route, and move new capability out there. Now, as some of 
the new capability comes out there, how we maintain and how we 
do that, we are changing processes.
    So, as we move that out there, we manage and look at how we 
keep those ships or aircraft and the newer aircraft up. The 
fleet commander is thinking ahead to the future and, due to the 
size of the Pacific, he is thinking that instead of a more 
traditional type of maintenance capacity, we may need to have a 
more mobile type of maintenance capacity. But in the end that 
might translate as we roll more out there, more maintenance 
capacity out there.
    Ms. Bordallo. Vice Admiral Cullom, would you have comments 
to make on that?
    Admiral Cullom. Yes, ma'am.
    To follow on with what the Vice Chief just said about the 
mobile maintenance capacity and the look that the fleet 
commander is looking at out there, as we do that, we will have 
to be much more agile and much more responsive to be able to 
handle all those different situations with the assets that we 
have.
    And to do so, we have been doing a lot of experimentation 
and prototyping of things. We have new vessels that are going 
out there, nontraditional type, auxiliary type ships, and those 
are the vessels formerly called the Joint High Speed Vessel, as 
well as the mobile landing platforms, the ESDs and EPFs.
    And those vessels give us the capability at the routine 
day-to-day type of operations of things that occupy a lot of 
the fleet commander's time, the ability to be able to handle 
some of those challenges with those vessels. And so if they can 
be able to do that in, as we call them, the Phase Zero 
operations--as that OPTEMPO [operations tempo] goes up.
    Now, very different story when you start talking about 
crisis--and then maybe we will shift that down the table here 
to Admiral Aquilino--but that, then, requires a different 
operation with those other USS ships and present a different 
challenge.
    But I think the mobile maintenance capacity, how that 
lashes up with our distributed lethality that we are talking 
about, I think, are going to be very critical things for the 
future for us, and we are looking at all of those.
    Ms. Bordallo. Vice Admiral Aquilino.
    Admiral Aquilino. Yes, ma'am.
    We are deploying right now. The presence that is being 
deployed by the Navy is currently at our maximum sustainable 
rate. So, as the chairman said before, the world gets a vote. 
The CNO and the Vice Chief have developed this model so that we 
are not only providing presence forward, but we are building 
surge capacity to respond to conflict and crisis when that 
occurs.
    So what I would say is, if something needed to be surged, I 
think where we are is we are in a pay me now or pay me later. 
If a conflict were to occur, we would take a deficit in 
readiness and push those forces forward to win the fight, 
understanding that we would then have to reset and build that 
readiness after the fact.
    Ms. Bordallo. Very good, all right.
    I have another question, Admiral Howard. While the 
Optimized Fleet Response Plan included certain assumptions with 
regard to maintenance and timelines, the unexpected increase in 
maintenance timelines appears to be having a negative effect on 
ship readiness. Is OFRP still a sustainable model that will 
ensure future readiness of the Navy, and what risks are we 
taking by maintaining this plan? What would be the effect of 
further maintenance delays?
    Admiral Howard. Ma'am, we have to be able to plan in order 
to get to maintenance periods that we can plan for and then 
eventually get to on-time execution.
    So the point of the OFRP and understanding that 36-month 
cycle and how much operational availability we can generate was 
then to be able to, one, lock in those maintenance periods and 
get to the most efficient and effective use of the supporting 
shipyards.
    So the issue, then, of our shipyards not always able to 
come in on time, some of that, is directly attributable to how 
we have been operating the fleet in the past.
    As we open up the ships, we discover additional work 
because we have engendered more wear and tear to the previous 
OPTEMPO, and then we have a decision to make. Do we fix it 
right then and there, or do you just close it back up and wait 
until the next maintenance eval? And if we choose to fix it 
right then and there, because it wasn't work we planned for, 
that ends up costing us more to fix it right then and there. 
But you want to have a ready ship, and so those are the 
choices.
    We have to work more closely, I think, and look at the 
processes of how we plan and prepare, particularly with our 
private partners, and get that planning process down and get to 
a more predictable understanding of what we think is going to 
be the state of the ship before it goes into the yards, and 
then that will get us to a better on-time execution in the 
schedule.
    Ms. Bordallo. Thank you.
    And one further question. The OFRP strives to rotate ships 
in the carrier strike groups and amphibious readiness groups 
through maintenance while ensuring an adequate presence and 
additional response force should a contingency arise. Now what 
is being done to guarantee the health and readiness of our 
support ships, including the oilers and the supply ships? And 
is there a need for a similar program aimed at providing 
security and stability to this section of the fleet?
    Admiral Cullom.
    Admiral Cullom. Ma'am, I will take that.
    For the support ships, their maintenance model, currently, 
is and has been for many years, very different because of the 
civilian mariner component that is involved with them. We have 
been watching that actually very carefully with regard to the 
aging of those ships, and that is across both the CLF [Combat 
Logistics Force] ships as well as those ships that are part of 
the larger ships upon which we can draw for sealift.
    And we are looking at some innovative things in terms of 
how we are going to go about recapitalizing those ships as well 
as the maintenance that they get. For right now I think it is 
those ships are probably--over time, you are going to see some 
fairly significant changes to those.
    And the MLP [mobile landing platform] and the EPF are--EPF 
and the ESD are examples of how that auxiliary force is 
actually changing a fair amount--going to ships that are 
aluminum construction, no longer steel construction, things 
that can go up much faster than the older ships; in some cases, 
smaller, but with huge amount of cube [cubic space].
    To get back to your real question, which is really about do 
we need to do an OFRP for them, I think, because of the way 
those things are accrued and the way they are matched up, 
probably not. But we are certainly looking at ensuring that we 
reset and restore that fleet in much the same way that we are 
looking at resetting and restoring the USS hulled ships.
    But their training cycles really end up defining why the 
OFRP is so important, the way it is, and the fact that you are 
actually adding together components from the aviation side, to 
components from the ship side, to, in some cases, components 
from the undersea side and land side, to bring all of those 
together for ARGs [amphibious ready groups] or for CSGs 
[carrier strike groups]--very different for our CLF and our 
sealift ships.
    Ms. Bordallo. Thank you very much, and I want to thank all 
the witnesses today. It has been very interesting and you have 
given some very concise answers to our questions and I do 
appreciate it and thank you for your service, and I yield back.
    Mr. Wittman. Thank you Ms. Bordallo.
    I do want to conclude with one final question, and that is 
concerning our amphibious force structure requirements, looking 
at what the Navy has done and looking at those under today's 
conditions.
    There have been some changes to strategic guidance. There 
have been some operational plans, or OPLANs, that have been 
revised and updated. Can you give the Navy's perspective on 
where our amphibious force structure needs to be in light of 
current conditions?
    Admiral Howard. Thank you, Congressman, for the question.
    So in our force structure assessments and then working with 
our Marine Corps partners, we have said that we are looking at 
a need for 38 amphibious ships. We currently have 30 ships on 
the rolls. With the 12th LPD [amphibious transport dock] that 
we have added, we are looking at 32 ships in fiscal year 2017, 
growing to 33 ships in 2021.
    The Commandant and CNO have agreed that 38 ships is the 
need. And, with 34, we accept some risk so that if we, 
depending on how we were postured, obviously would probably be 
able to generate 30 out of 34.
    We continue to increase the amphib structure, presuming 
budgets hold stable. The plan is, continue to increase the 
number of amphibious ships. But, once again it is, when you 
look at our ability to build ships, it is a slow climb.
    The other real challenge we are going to have is the Ohio 
replacement.
    Mr. Wittman. Yes.
    Admiral Howard. So right now, as that submarine comes 
online, if the Navy is required to fund that out of our own 
budgetary account, it will literally swallow up the entire ship 
construction account and have impact on the rest of our 
conventional force. So even the Commandant has said that, if we 
cannot determine a way to get to that strategic asset outside 
of the DON [Department of the Navy] account, that obviously 
will have an impact on our ability to build new amphib ships.
    Thank you for the question.
    Mr. Wittman. Thank you, Admiral Howard. You bring up a 
great point and that is why I think it is incredibly important 
to have something like the National Sea-Based Deterrence Fund 
where we can fund it outside of the shipbuilding budget.
    We understand, by the time that boat gets to the fleet, it 
will be approaching $6 billion in costs. And if we fund it or 
it is decided to be funded in the shipbuilding budget, the boom 
you hear will be the ship building budget exploding, not a 
missile being launched from one of those new Ohio-class 
replacement submarines. So I understand where we need to be, 
and we pursued that last year.
    Unfortunately, it got short-circuited in the omnibus budget 
bill, but I can assure you we will continue that effort. We 
think it is indeed a national program. It just so happens that 
the Navy operates the ship but it is a national asset that is 
part of that triad, and we still think the triad has 
particularly important significance in nuclear deterrence.
    And I understand the Air Force is also pursuing their Long-
Range Strategic Bombers so some have suggested that that ought 
to be funded the same way. And we don't necessarily have any 
heartburn with that as long as the resources are there. We are 
going to do that in a deterrence fund, whether you call it sea-
based or not. There are enough resources there. And then that 
creates the proper focus.
    As you said, you put it into a shipbuilding budget. In the 
normal ways that those things happen, is to put it in the 
shipbuilding budget and say here is $3 billion, Navy come up 
with the rest.
    And we know that there are not those dollars that are 
resting in other operational accounts, so what will happen is 
there will be delays, long delays, in shipbuilding programs. 
And some of them are locked in so there is not a lot of 
flexibility in doing--in what you can do with some of those 
programs.
    So that means any other program that is not locked in now 
gets pushed, not just a little bit to the right, but way to the 
right, to the point where it is outside the FYDP or any other 
forward-looking document to even hope that we are going to get 
to the point of building those ships. So I agree with you.
    Getting amphibious ship decisions on LX(R) [dock landing 
ship] locked in and then making sure we lock in ORP [Ohio 
Replacement Program] outside of the shipbuilding budget, I 
think, creates a long-term certainty and stability for the Navy 
as far as building ships and making sure the capacity is there 
with the fleets.
    So I appreciate your bringing that up because it is an 
extraordinarily important part of what we need to do to make 
these pieces fit together.
    So I appreciate all of our panelists today. Vice Admiral 
Cullom, thank you for your service. Admiral Howard, as always, 
thank you, and thanks for the great job you do there on the 
Board of Visitors at the Naval Academy. We appreciate your 
passion there and what you add there, which is significant, and 
so we appreciate that.
    And Vice Admiral Aquilino, thanks so much for your 
leadership and all the things that you do.
    You all truly have best interests of your sailors at heart 
in making sure that we not only have the Navy of today but the 
Navy of the future.
    So thank you again, and if you have anything else for the 
record, please don't hesitate to enter it with us; and if there 
are no further questions, we hereby adjourn.
    [Whereupon, at 11:18 a.m., the subcommittee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                             March 17, 2016

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 17, 2016

=======================================================================

      

      
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 17, 2016

=======================================================================

      

              RESPONSE TO QUESTION SUBMITTED BY MR. SCOTT

    Admiral Cullom. Naval Aviation is currently experiencing a Ready 
Basic Aircraft (RBA) gap of more than 300 aircraft on the flight line. 
At this time, Naval Aviation is meeting approximately 77% of the RBA 
requirement. The Fiscal Year 2017 President's Budget request will 
incrementally increase the number of aircraft on the flight line in our 
most challenged type/model/series (T/M/S). With steady funding and 
consistent OFRP deployment schedules, the RBA gap is projected to 
recover by 2020. You will see full-spectrum readiness improvements as 
soon as those available assets appear on the flight line in significant 
numbers.   [See page 16.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MS. STEFANIK
    Admiral Howard. The 71 percent dissatisfaction rate from wear test 
participants applies to feedback on the original Alternate Combination 
Cover (ACC) prototype. Alterations were made based on wear test 
feedback, and an improved, more comfortable variant was selected and is 
currently available for purchase in Navy uniform stores. Other uniform 
component changes have met with favorable opinions. For example, almost 
90 percent of respondents liked the appearance of the new female 
chiefs' and officers' Service Dress White (SDW) Choker Coat.
    These uniform changes create savings for the individual Sailor, the 
Navy, and the taxpayer. Enlisted personnel are paid an annual clothing 
replacement allowance (CRA) to cover the cost of required uniformed 
items. The SDW Choker Coat and ACC will only apply to Chief Petty 
Officers (E-7 to E-9.) The savings for the SDW Choker Coat against the 
current coat is estimated at $85 per item and the savings for the ACC 
is $20 per item. In the future, this will be result in a reduced CRA to 
the individual servicemembers at a total savings of $122K annually. 
Additionally, personnel who purchase these items prior to the expected 
replacement rate of three years will benefit from the lower cost of the 
replacement uniforms.
    Officers receive a one-time payment of $400 to offset initial 
uniform costs but are otherwise required to pay for their uniforms. The 
new components will be an out-of-pocket expense to female officers 
estimated at $300. If an officer has to replace one of the new items, 
they will pay less for the new components than they would for the 
previous versions. Price varies by rank for the new cover due to added 
detail for senior officers. For example, at the O5-O6 level, the 
officer would save approximately $50; while at the O1-O4 level, the 
savings would be about $20.   [See page 9.]

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
